U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




    ECONOMIC DEVELOPMENT
          ADMINISTRATION

                          The EDC Fund, Inc.
                         Revolving Loan Fund
                    EDA Grant No. 01-39-01829


        Audit Report No. ATL-17285-6-0001/January 2006




                            PUBLIC
                            RELEASE



            Office of Audits, Atlanta Regional Office
U.S. Department of Commerce                         Final Report ATL-17285-6-0001 

Office of Inspector General                                          January 2006


                              TABLE OF CONTENTS
                                                                              Page

EXECUTIVE SUMMARY..……..…….……………………………………….……….….                                 i


INTRODUCTION ………………………………………..…………..…….……………....                                1


OBJECTIVES, SCOPE AND METHODOLOGY …………...……………..……………...                        2


FINDINGS AND RECOMMENDATIONS………………………………….………….…                                3


   THE EDC HAD OVER $94,000 

   IN EXCESS CASH…….....…..………………………………….....…………………....                        3


      Grantee Response……………………………………………………………………..                              4


      OIG Comments………………………………………………………………………                                   4


      Recommendation…………….………………………………………………………                                 4


      Funds to Be Put to Better Use……………………………………………..………….                     5


   LINE OF CREDIT LOAN AND OTHER RELATED PARTY 

   TRANSACTIONS CREATED CONFLICTS OF INTEREST…………….…………...                      6


      Line of Credit Loan to Executive Director……….……………………………….....            6


      Related Party Transactions 

      For Contract Services……………………..………………………………..…………                         7


      Related Party Agreement 

      For Office Rental Space………….…………………………………………..……….                        7


      Grantee Response……………………………………………………………………..                              7


      OIG Comments……………………………………………………………………….                                  8


      Recommendations…………….………………………………………………………                                8


   FORMAL LOAN APPLICATIONS

   NOT ALWAYS REQUIRED……………………………………………………..…….                                 9


      Grantee Response……………………………………………………………………..                              9


      OIG Comments……………………………………………………………………….                                  9


      Recommendations…………………………………………………………………...                               9

U.S. Department of Commerce                         Final Report ATL-17285-6-0001 

Office of Inspector General                                          January 2006




   RLF LOAN FILE DOCUMENTATION 

   WAS INADEQUATE………….………………………………………………………..                                   10 


       Loan Leveraging 

       Was Not Documented.……………………………………………………………….                             10 


       Other Documents Not 

       In RLF Loan Files………………………………………………………………..…..                           10 


       Grantee Response…………………...………………………………………………..                           10 


       OIG Comments…………………...………………………………………………….                               10 


       Recommendations………….……...……………………………………………..…..                          11 


  THE EDC HAS NOT COMPLIED WITH CERTAIN OTHER 

  RLF ADMINISTRATIVE REQUIREMENTS………………...…..……...…….……….                       12 


       The EDC Failed to Submit Most Semiannual Reports and Others 

       Were Not Timely, Complete and Accurate……….…………...…………………….               12 


      The EDC Did Not Submit 

      Annual RLF Plan Certifications …...…………………………………..……………..                 12 


      The EDC Did Not Submit Annual 

      RLF Income and Expense Statements. ………………………………………………                     13 


      Required Single Audits 

      Have Not Been Conducted…………..……………..…………...…..…..……………                    13 


      Grantee Response……………………………………………………………………..                              13 


      OIG Comments………………………………………………………………………..                                 14 


      Recommendations…………………………………………………….………………                                14     


APPENDIX I - GRANTEE’S RESPONSE TO DRAFT AUDIT REPORT 

                                                           M I T E 0 STATES DEPARTMENT OF COMMERCE
                                                           O ~ Co
                                                                Bf    Inspector General
                                                           Office of Audits
                                                           ATLANTA REGIONAL OFFICE
                                                           401 W. Peachtree St., N.W.. Su~te2742
 JAN   I 1 2086 	                                          Atlanta, Georgia 30328
                                                           (404) 730-2788 FAX
                                                           (404)730-2780
MEMORANDUM FOR: 	             Paul M. Raetsch
                              Regional Director
                              Philadelphia Regional Office
                              Economic ~ e v e i o ~ m eAdministration
                                                        nt
                              &&,,               fl.
FROM:                         Kathleen M. McKevit?
                              Regional Inspector General
                               for Audits

SUBJECT: 	                    Final Audit Report No. ATL 17285-6-000 1
                              Auditee: The EDC Fund, Inc.
                              EDA Grant NO. 01-39-01829

We are attaching a copy of the subject audit report for y o u action in accordance with
DAO 213-5, "Audit Resolution and Follow-up." The original report has been sent to the
auditeehecipient, who has thirty (30) days fiom the date of the transmittal to submit comments
and supporting documentation to you We have also attached a copy of our transmittal letter.
Requests fiom the public.for copies of this report under the Freedom of Information Act must be
referred to:

                      Office of Inspector General
                      Office of Compliance and Administration
                      Publication Unit
                      U.S. Department of Commerce
                                                       -
                      14th & Constitution Ave., N.W. Room 7099C
                      Washington, DC 20230

Under DAO 213-5, you have sixty (60) calendar days &om the date of this memorandum to
reach a decision on the actions you propose to take on each audit finding and recommendation
and to submit an Audit Resolution Proposal to this office. The format for the proposal is Exhibit
8 of the DAO. As applicable, your written proposal must include the rationale and/or legal basis
for reinstating any questioned cost in the report and should reference any supporting
documentation relied on. Your comments should also address the funds to be put to better use
cited in the audit report. Under the DAO, the Office of the Inspecior General must concur with
your proposal before it may be issued as a final determination and implemented. The DAO
prescribes procedures for handling any disagreements this office may have with the Audit -
Resolution Proposal. Also, please copy us when the audit determination letter is sent to the
auditee.
Any inquiry regarding this report should be directed to Jerry McMahan at (404) 730-2065. ~ i l
correspondence should refer to the audit report' number given above.

Attachments

cc: 	   Sandy Bax-uah, ~cting Assistant Secretary for Economic Development
        Mary Pleffher, Acting Deputy Assistant Secretary and Chief Operating Officer, EDA
        Deborah Caution, Audit Liaison, EDA
U.S. Department of Commerce                                            Final Report ATL-17285-6-0001 

Office of Inspector General                                                             January 2006


                                   EXECUTIVE SUMMARY 


In September 1978, the Economic Development Administration (EDA) awarded a $720,000
long-term economic deterioration assistance grant to the Economic Development Council of
Southwest Vermont Incorporated, a local development district in Manchester, Vermont. The
grant required no matching share.

The grant established a revolving loan fund (RLF) to redress an actual or threatened economic
dislocation or other adjustment problem for the areas of Bennington and Rutland Counties in
the State of Vermont. In July 1999, EDA amended the award and transferred the assets and
responsibility for administration of the RLF to the EDC Fund, Inc., a non-profit corporation in
Rutland, Vermont.

We conducted a financial and compliance audit of the RLF during December 2004. The audit
covered the three-year period from January 1, 2002, to December 31, 2004. Our objectives
were to determine (1) the financial status of the RLF, (2) the propriety of administrative costs
charged to the RLF, and (3) the EDC’s compliance with applicable federal laws and
regulations, grant terms and conditions and the RLF plan.

Our audit found that the EDC had not complied with certain terms and conditions of the grant.
We determined that the EDC (1) had $94,013 in excess cash; (2) made a $10,000 line of credit
RLF loan to its executive director; (3) entered related party transactions without written
contracts, required disclosures or prior approvals through written determinations; (4) failed to
always obtain formal loan applications; (5) had RLF loan files without the required supporting
documentation for private leveraging, credit reports, and jobs created or retained; (6) failed to
submit most semiannual reports and others were not timely, complete and accurate; (7) failed to
submit RLF plan certifications, and income and expense statements; and, (8) had not obtained
single audits required by OMB Circular A-133.

In their response to the draft report, grantee officials: (1) stated that they made additional loans
of $75,000 and have an additional $75,000 in loans pending but did not submit any supporting
documentation; (2) stated that the line of credit loan to the executive director would not be
renewed; (3) submitted missing written contracts for the related party agreements;
(4) submitted formal loan applications for 3 of 9 loans that could not be located at the time of
our fieldwork; (5) stated that they are working to obtain better leveraging and that jobs to be
created or retained will be documented in future loan applications; (6) stated that they are
working to improve timely submission of semiannual reports; (7) stated that they have no funds
for a new RLF plan update or certification, and that the annual audit report takes the place of
the income and expense report; and (8) stated that they have used the same audit source since
the grant was first issued.

We recommend that EDA’s Philadelphia Regional Director require that the EDC:

    1.	 Deposit the excess funds, $94,013 as of December 31, 2004, into a separate interest
        bearing account and remit the interest monthly to the U.S. Treasury; use the excess
        funds within six months to make direct loans or loan guarantees in accordance with
        RLF program objectives; and, remit any unused excess funds remaining in the account
        after six months to the U.S. Treasury. In determining excess funds, EDA should
                                                 i
U.S. Department of Commerce                                           Final Report ATL-17285-6-0001
Office of Inspector General                                                            January 2006

        require EDC to write off the uncollectable portion of the $128,437 in reserve for loan
        losses.

    2.	 Provide written support that the RLF line of credit loan to the executive director has not
        been renewed and bank records showing the loan has been repaid in full.

    3.	 Obtain EDA approval of all related party contracts. If EDA does not approve, we
        recommend that the Regional Director require EDC to repay the RLF for expenses
        charged under the related party agreements.

    4.	 Provide loan applications for the four loan applications not provided in the grantee
        response to the draft report. Also, obtain and retain written loan applications including
        appropriate supporting documents for all future RLF loan applicants

    5.	 Obtain private leveraging with RLF funds of at least a 5 to 1 ratio in accordance with
        EDC’s RLF Plan.

    6.	 Fully document the RLF loan files, including private leveraging; credit reports; and
        number of jobs created or retained.

    7.	 Submit all required semiannual reports to EDA and ensure that the reports are timely,
        complete and accurate. EDA should ensure that appropriate training takes place.

    8.	 Submit annual RLF plan certifications and the 2004 income and expense statement to
        EDA.

    9.	 Obtain single audits for each of the past 3 years and for future years as required by
        OMB Circular A-133.

We have summarized the grantee’s draft report response and provided our comments in the
appropriate report sections. We also have included EDC’s complete response, excluding
attachments, as Appendix I.




                                                ii
U.S. Department of Commerce                                          Final Report ATL-17285-6-0001

Office of Inspector General                                                           January 2006


                                      INTRODUCTION 


In September 1978, the Economic Development Administration (EDA) awarded a $720,000
long-term economic deterioration assistance grant to the Economic Development Council of
Southwest Vermont Incorporated, a local development district in Manchester, Vermont. The
grant required no matching share.

The grant established a revolving loan fund (RLF) to redress an actual or threatened economic
dislocation or other adjustment problem for the areas of Bennington and Rutland Counties in
the State of Vermont. In July 1999, EDA amended the award and transferred the assets and
responsibility for administration of the RLF to the EDC Fund, Inc., a non-profit corporation in
Rutland, Vermont.

The EDC had 15 RLF loans outstanding, with principal balances totaling $274,911 as of
December 31, 2004.
U.S. Department of Commerce                                         Final Report ATL-17285-6-0001 

Office of Inspector General                                                          January 2006


                      OBJECTIVES, SCOPE AND METHODOLOGY 


We conducted a financial and compliance audit of the RLF at the EDC office in Rutland,
Vermont during December 2004. Our objectives were to determine (1) the financial status of
the RLF, (2) the propriety of administrative costs charged to the RLF, and (3) the EDC’s
compliance with applicable federal laws and regulations, grant terms and conditions and the
RLF plan.

The audit covered the period from January 1, 2002, to December 31, 2004. We were unable to
follow-up on activity from the last OIG audit, for the period ending December 1992, because
EDC did not provide prior accounting and loan records. For the 3-year period audited, we
examined pertinent EDA and EDC records, and interviewed agency and grantee officials. We
reviewed the EDC’s financial management of the RLF and the 15 loans outstanding as of
December 31, 2004. We also reviewed two additional loans that had been closed out during the
3-year period.

We reviewed the EDC’s most recent completed annual audit report for the fiscal year ending
December 31, 2002. An independent certified public accounting firm conducted the audit in
accordance with U.S. generally accepted auditing standards. Since this type of audit report
does not include an opinion on internal controls we determined that we could best meet our
audit objectives through testing of RLF transactions.

We relied on computer-processed data supplied by the EDC as the basis for some of our audit
findings and recommendations. We determined the validity and reliability of computer-
processed data by direct tests of the data to supporting documentation. Based on our tests, we
concluded that the computerized data was sufficiently reliable for use in meeting our
objectives.

We evaluated the EDC’s compliance with federal laws and regulations applicable to the EDA
grant project. We identified Title IX of the Public Works and Economic Development Act of
1965, as amended, as the applicable federal law. We also identified Title 13 Code of Federal
Regulations (CFR) Part 308, Requirements for Economic Adjustment Grants, EDA’s Revolving
Loan Fund Grants Standard Terms and Conditions, and EDA’s Special Terms and Conditions
as the applicable federal requirements.

Since a nonprofit corporation administers the RLF, we also identified OMB Circular A-110
Uniform Administrative Requirements for Grants and Agreements With Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations, and OMB Circular A-122 Cost
Principles for Non-Profit Organizations, as additional requirements.

We found that the EDC was not in compliance with certain grant requirements. The
noncompliance issues were deemed material and are detailed in the “Findings and
Recommendations” section of this report.

We conducted the audit in accordance with generally accepted government auditing standards,
and performed it under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.
                                               2

U.S. Department of Commerce                                          Final Report ATL-17285-6-0001 

Office of Inspector General                                                           January 2006


                          FINDINGS AND RECOMMENDATIONS 


Our audit found that the EDC had not complied with certain terms and conditions of the grant.
We found that the EDC (1) had over $94,000 in excess cash; (2) made a $10,000 line of credit
RLF loan to its executive director; (3) entered related party transactions without written
contracts, required disclosures or prior approvals through written determinations; (4) failed to
always obtain formal loan applications; (5) had RLF loan files without the required supporting
documentation for private leveraging, credit reports, and jobs created or retained; (6) failed to
submit most semiannual reports and others were not timely, complete and accurate; (7) failed to
submit RLF plan certifications, and income and expense statements; and, (8) had not obtained
single audits required by OMB Circular A-133.

THE EDC HAD OVER
$94,000 IN EXCESS CASH

The RLF had over $94,000 in excess cash reserves as of December 31, 2004. The goal of the
RLF program is to assist economically distressed areas by creating loan funds for use in
making business loans designed to save or create jobs. RLF operators are expected to
maximize the amount of capital loaned out or committed at all times in order to achieve the
program’s goals of job creation and retention in Bennington and Rutland Counties in the State
of Vermont. Federal regulation 13 CFR Section 308.17(c) requires that at least 75 percent of
an RLF’s capital should be utilized by being loaned out or committed at all times. When the
percentage of capital utilized falls below this standard, the amount of funds equivalent to the
difference between the percentage of capital utilized and the standard represents excess funds.

The regulation further addresses prolonged excess funds and states that when a second
consecutive RLF status report shows that the 75 percent standard has not been met, EDA may
require an RLF operator to deposit the excess funds into a separate interest-bearing account.
The regulation states that the interest earned on the account, attributable to the EDA grant,
should be remitted to the U.S. Treasury. In addition, the regulation states that RLF operators
who persistently fail to make maximum use of the available RLF capital will be required to
return excess funds to the U.S. Treasury.

As the table on the next page shows, the RLF had cash reserves that exceeded EDA’s allowable
uncommitted cash by over $94,000 as of December 31, 2004. In addition, for calendar years
2002 and 2003 the RLF has had excess cash of more than $149,000. EDC made four RLF
loans in 2002, zero loans in 2003 and only two loans in 2004. EDC officials stated that they
have potential RLF loan applicants. However, based on the low number of loans made, the
RLF apparently has little or no need for the excess cash.




                                                3

U.S. Department of Commerce                                                   Final Report ATL-17285-6-0001 

Office of Inspector General                                                                    January 2006


                                      RLF Excess Cash Balance
                                        (December 31, 2004)

           Fund Balance                                    $628,399 *
           Less: Current RLF Income                          16,500          $611,899

           Less: Outstanding Loans                         $274,911 *
                 Committed Loans                             90,000            364,911

           Available Cash Balance                                             $246,988
           Less: Uncommitted Cash Allowed                                      152,975
           Excess Cash                                                                       $94,013

            * The fund balance contains outstanding loans of $274,911. These loans have not been
              reduced for uncollectable amounts included in the EDC’s $128,437 reserve for loan losses.

Grantee Response

Officials also stated that the EDC may have had excess cash at the time of the audit because in
previous years the local banks had become very aggressive and granted loans to people who
contacted the EDC for loans. Officials stated that the market has changed in the last six to
eight months and they now have increased demand for loans. Grantee officials stated they have
made $75,000 in loans and that an additional $75,000 in loans are pending. Officials also
submitted an independent accountant’s schedule detailing the loan loss reserves of $128,437.

OIG Comments

Officials did not submit information, such as loan applications and approvals, to support the
$75,000 in new loans they claim to have made or the $75,000 in additional loans pending.
Therefore, we did not include these amounts in the calculation of excess cash.

However, we changed our computation of excess cash, to be consistent with EDA’s
methodology. The computation in the table above shows that the grantee included loans
receivable of $274,911 in computing the RLF fund balance without reduction for uncollectable
amounts included in its loan loss reserves of $128,437. Any uncollectable amounts included in
loan loss reserves should be identified and written off to present a more accurate analysis of
RLF funds available.

Recommendation

We recommend that EDA’s Philadelphia Regional Director require the EDC to:

       Deposit the $94,013 in excess funds, as of December 31, 2004, into a separate interest-
       bearing account and remit the interest monthly to the U.S. Treasury; use the excess
       funds within six months to make direct loans or loan guarantees in accordance with
       RLF program objectives; and, remit any unused excess funds remaining in the account
       after six months to the U.S. Treasury. In determining excess funds, EDA should require
       EDC to write off the uncollectable portion of the $128,437 in reserve for loan losses.

                                                     4

U.S. Department of Commerce                                      Final Report ATL-17285-6-0001
Office of Inspector General                                                       January 2006

Funds to Be Put to Better Use

By implementing the recommendation above, $94,013 in excess cash will be put to better use
by either increasing the RLF’s loan activity or returning the funds to the U.S. Treasury.




                                             5

U.S. Department of Commerce                                          Final Report ATL-17285-6-0001 

Office of Inspector General                                                           January 2006


LINE OF CREDIT LOAN AND OTHER RELATED PARTY
TRANSACTIONS CREATED CONFLICTS OF INTEREST

The EDC created conflicts of interest by issuing an RLF line of credit loan to its executive
director and engaging in other related party transactions without written contracts, appropriate
disclosures or prior approvals through written determinations. Also, a company owned by the
executive director charged costs to the RLF for his services to the program. In addition,
companies owned by the president charged costs to the RLF program for secretarial services
and office space rental.

EDA’s RLF Standard Terms and Conditions, Part II Section F.4.a. states:

       “No officer, employee, or member of the RLF Recipient’s Board of Directors, or
       other Board (hereinafter referred to as “other board”) that advises, approves,
       recommends or otherwise participates in decisions concerning loans or the use
       of RLF grant funds, or person related to the officer, another employee, or any
       member of the Board by immediate family, law, or business arrangement, may
       receive any benefits resulting from the use of the RLF loan or grant funds. In
       addition, the RLF Recipient may not lend RLF funds to an employee of the RLF
       Recipient or any member of the RLF Recipient’s Board of Directors, or a
       member of any other Board.”

The regulation also states:

       “Exception: A benefit or loan may be conferred if the officer, employee, or
       Board member affected first discloses to the RLF Recipient on the public record
       the proposed or potential benefit and receives the RLF Recipient’s written
       determination that the benefit involved is not so substantial as to reflect
       adversely upon or affect the integrity of the RLF Recipient’s decision process or
       the services of the officer, employee or board member.”

Line of Credit Loan to
Executive Director

The EDC made a $10,000 line of credit RLF loan to a company owned by its executive
director, which created a conflict of interest. The executive director is also a member of the
EDC Fund, Inc. Board of Directors. The purpose of the loan was to purchase inventory and
operating expenses. The EDC Board reviews potential loan applications for RLF funding. As
stated in the criteria above, neither an employee nor a board member may receive a benefit
from the RLF program. This is a violation of the EDA regulations. EDC officials did not agree
that the RLF loan was a conflict of interest. EDC officials stated that the executive director is
not an employee but his position is under contract with the RLF program for part-time services
on an as needed basis. Whether the executive director was a member of the board or an
employee, his position is prohibited from receiving a benefit from the RLF program without
meeting the exception rule above.




                                                6

U.S. Department of Commerce                                             Final Report ATL-17285-6-0001
Office of Inspector General                                                              January 2006

Related Party Transactions
For Contract Services

Two companies owned by EDC officials charged costs to the RLF program. The costs were for
the services of the executive director and for secretarial services. One of the companies owned
by the executive director charged costs for his part-time services at a rate of [text removed] per
hour, plus mileage. The executive director stated that the EDC Board of Directors appointed
him to this position in March 1998. During the audit period, the company charged $1,200 for
his services to the RLF program. EDC has not provided a written contract agreement with this
related company.

Another company, owned by the EDC president, charged costs to the RLF program for part-
time secretarial services at a rate of [text removed] per hour, plus other related expenses.
During the period from February 2002 through October 2004, the company charged $11,565 in
costs to the RLF program. The president stated that there was no written contract agreement
between the EDC and the company.

EDC officials did not have written contracts to support these services. In addition, officials had
not made appropriate disclosures or obtained prior approvals through written determinations
required by EDA’s RLF Standard Terms and Conditions, as detailed on page 6, that the benefit
involved is not so substantial as to reflect adversely upon or affect the integrity of their decision
process or service of the officer, employee or board member.

Related Party Agreement
For Office Rental Space

The EDC also entered a rental agreement for office space with a company owned by the EDC
President. The company charges the RLF [text removed] per month, plus quarterly common
facilities fees. EDC officials stated that the rental rate was comparable for the local area.
Based on our analysis of three comparable office rental spaces in the local area, the monthly
rental rate appears to be reasonable. From January 2002 to December 2004, the company
charged [text removed] to the RLF program.

EDC officials had a written contract but had not obtained the disclosure or prior approval
through a written determination required by EDA’s RLF Standard Terms and Conditions, as
detailed on page 6, that the benefit involved is not so substantial as to reflect adversely upon or
affect the integrity of their decision process or service of the officer, employee or board
member.

Grantee Response

Grantee officials stated that the executive director was hired as a consultant directed to perform
services under the direction of the EDC President on an as needed basis. Officials also stated
that the board voted and discussed any and all conflicts of interest and felt the exceptions
provided in the regulations were met. Officials also stated that the board voted not to renew the
loan to the executive director at the last board meeting. Officials also submitted formal
contract agreements for the two companies providing related party services to the EDC for the
positions of executive director and secretary.
                                                  7

U.S. Department of Commerce                                          Final Report ATL-17285-6-0001
Office of Inspector General                                                           January 2006

OIG Comments

We agree with the grantee board’s decision not to renew the RLF loan to the executive director.
The current loan term ends in February 2005; therefore, we recommend that EDA require the
EDC to provide written support that the loan has not been renewed and to provide bank records
showing the loan has been repaid in full.

The grantee submitted with its response, written related party contract agreements for the
services of the executive director and the secretary. The grantee previously provided written
contract agreements for the rental of office space. EDA’s RLF Standard Terms and
Conditions, described on page 6, provides the rules for related party exceptions. The rules do
not require EDA’s approval to obtain an exception to related party transactions. However, for
an exception to apply, the rules require that the RLF recipient must first make a written
determination that there would be no adverse effect on the RLF. Since EDC failed to make
such a determination, we recommended that the grantee obtain EDA’s approval or repay
amounts charged to the RLF for the related party transactions. We continue our
recommendation.

Recommendations

We recommend that the EDA Philadelphia Regional Director require that the EDC:

   1.	     Provide written support that the RLF line of credit loan to the executive director has
           not been renewed and bank records showing the loan has been repaid in full.

   2.	     Obtain EDA approval of all related party contracts. If EDA does not approve, we
           recommend that the Regional Director require EDC to repay the RLF for expenses
           charged under the related party agreements.




                                                8

U.S. Department of Commerce                                           Final Report ATL-17285-6-0001
Office of Inspector General                                                            January 2006

FORMAL LOAN APPLICATIONS
NOT ALWAYS REQUIRED

The EDC failed to obtain and document formal loan applications for 9 of the 17 RLF loans
reviewed. EDA’s RLF Standard Terms and Conditions, Part II Section I.1., requires each RLF
grantee to retain loan files and related documents and records over the life of a loan and for a
three-year period from the final disposition of a loan.

Loan applications for the nine loans could not be located in the loan files. Officials stated that
in most cases, a written application is not required from the borrower in applying for a loan.
Officials stated that the borrower just has to present the loan purpose and use to the board of
directors. However, EDC needs to require written loan applications for all RLF loan
applicants.

Grantee Response

Grantee officials submitted formal loan applications for 3 of the 9 RLF loans that could not be
located at the time of our fieldwork. Two additional loans did not have formal loan
applications because the borrowers requested the loans by letter. EDC officials provided our
office copies of the two letters.

OIG Comments

We accept the documentation for the three loan applications submitted. The two letter
applications are not adequate substitutions for loan applications because they do not contain the
basic application information requirements. The grantee needs to provide loan applications to
EDA for the remaining four loans and to obtain and retain written loan applications with
appropriate supporting documents for all future loan applications.

Recommendations

We recommend that the EDA Philadelphia Regional Director require that EDC:

   1.	 Provide documentation for the four loan applications not provided in the grantee 

       response to the draft report. 


   2.	 Obtain and retain written loan applications including appropriate supporting documents
       for all future RLF loan applicants.




                                                 9

U.S. Department of Commerce                                            Final Report ATL-17285-6-0001 

Office of Inspector General                                                             January 2006


RLF LOAN FILE DOCUMENTATION
WAS INADEQUATE

EDA’s RLF Standard Terms and Conditions, Part II Section I.1., requires each RLF grantee to
retain loan files and related documents and records over the life of a loan and for a three-year
period from the final disposition of a loan. In addition to 9 loan files not having loan
applications, discussed in the previous section, our review of 17 RLF loan files revealed
inadequate documentation for loan leveraging, proof of credit checks, and jobs to be created or
retained.

Loan Leveraging Was Not Documented

The EDC failed to provide documentation to support loan leveraging for 15 of the 17 RLF
loans reviewed. Leveraging is the participation by non-RLF funds in the RLF loan project.
Leveraging for the 15 loans could not be identified in the loan files. Officials stated that in
most cases no leveraging is required. However, the EDA RLF Standard Terms and Conditions
Section II. F.3. requires RLF loans to leverage private investment at least two dollars for every
dollar of RLF investment. The EDC RLF Plan also stated a ratio between other funds and RLF
funds of 5 to 1. The EDC needs to ensure that the RLF loan portfolio is meeting the leveraging
requirement and document that in its files.

Other Documents Not
In RLF Loan Files

The EDC also did not have support for the following documents in the loan files. They did not
have support for credit checks for any of the 17 RLF borrowers reviewed. The lack of credit
reports also prevented the analysis of credit otherwise available to the borrowers. The officials
stated that they do not conduct credit checks on potential borrowers. Officials stated that they
examine the feasibility of the company, the use of funds and the ability of the borrower to repay
the loan. In addition, the EDC did not provide support for the number of jobs created or
retained for 16 of the 17 loans reviewed. The EDC needs to obtain required documents and
retain them in the loan files.

Grantee Response

Grantee officials stated that they are working to obtain better collateral on loans but there is no
mechanism available for them to leverage the RLF funds unless they are willing to take second
or third mortgage positions behind other organizations. Officials stated that formal credit
reports have never been obtained and the EDC is not a part of any credit bureau that would
allow access to credit reports. Also, they stated that any personal reference and credit checks
they obtain are by telephone. Officials also stated that they are revising their loan application
form so that applicants can state the number of jobs to be created or retained.

OIG Comments

We have not changed our findings and recommendations. The grantee should leverage the
RLF loans by requiring other entities to participate in a borrower’s project. Also, the grantee


                                                10

U.S. Department of Commerce                                           Final Report ATL-17285-6-0001
Office of Inspector General                                                            January 2006

needs to obtain and document credit checks for each borrower. We agree with the grantee
revising the loan application to include statements regarding jobs to be created or retained.

Recommendations

We recommend that EDA’s Philadelphia Regional Director require the EDC to:

   1.	 Obtain private leveraging with RLF funds of at least a 5 to 1 ratio in accordance with
       EDC’s RLF Plan.

   2.	 Fully document the RLF loan files, including private leveraging, credit reports, and
       number of jobs created or retained.




                                                11

U.S. Department of Commerce                                           Final Report ATL-17285-6-0001
Office of Inspector General                                                            January 2006

THE EDC HAS NOT COMPLIED WITH CERTAIN OTHER
RLF ADMINISTRATIVE REQUIREMENTS

Our audit disclosed that the EDC has not complied with certain other EDA RLF administrative
requirements. Specifically, the EDC failed to submit most semiannual reports and others were
not timely, complete and accurate. EDC did not submit annual RLF plan certifications and
income and expense statements. In addition, single audit reports have not been performed as
required.

The EDC Failed to Submit Most Semiannual Reports and
Others Were Not Timely, Complete and Accurate

The EDC did not submit most required semiannual reports and others were not timely,
complete, and accurate. EDA’s RLF Standard Terms and Conditions, Part II Section J.1.,
requires that RLF operators submit semiannual reports on their operations to EDA. The EDA’s
RLF Administrative Manual, Section XI.A.2, states that the semiannual RLF status reports are
due October 31 for the period ending September 30, and due April 30 for the period ending
March 31.

EDA provides a standard report format and instructions that require RLF operators to report
their cumulative loan operations through each semiannual period. EDA uses the semiannual
reports to monitor the grant projects to ensure that RLF operators are managing funds in
accordance with their RLF plans and the agency’s administrative requirements. Therefore, it is
essential that the reports are timely submitted.

The EDC did not submit four out of the last six required semiannual reports and the two reports
submitted were late. A review of the reports submitted since March 31, 2002, revealed that the
reports for the periods ending March 31 and September 30, 2002, and September 30, 2003, and
September 30, 2004, were not submitted. Also, the report for the period ending March 31,
2003, was submitted seven months late on November 21, 2003, and the report for the period
ending March 31, 2004, was submitted six months late on October 26, 2004. The EDC
officials stated that the reports were either not prepared or late because the current officials of
the RLF program were not given formal training on the preparation of the reports. Also, the
reports submitted were not complete and accurate in the presentation of RLF loan numbers and
outstanding loan balances. For example, the March 31, 2004, report did not accurately report
total loans made by the RLF and the total outstanding loan amount did not agree with EDC’s
monthly internal financial reports.

The EDC Did Not Submit
Annual RLF Plan Certifications

EDA’s RLF Standard Terms and Conditions, Part II Section J.2., requires each RLF grantee to
certify annually to EDA that (1) the grantee’s RLF plan is consistent with and supportive of the
area’s current economic adjustment strategy, and (2) the RLF is being operated in accordance
with the plan’s policies and procedures, and that the loan portfolio meets the plan’s standards.
The annual certification procedure is intended to assure EDA that grantees are reviewing their
RLF plans at least annually and that their operations conform to the plan. The annual


                                                12

U.S. Department of Commerce                                          Final Report ATL-17285-6-0001
Office of Inspector General                                                           January 2006

certification should be submitted with the semiannual RLF report for the period ending
September 30. There was no indication that the EDC had ever complied with this requirement.

The EDC Did Not Submit Annual
RLF Income and Expense Statements

EDA’s RLF Standard Terms and Conditions, Part II Section J.3., requires each RLF grantee
that uses 50 percent or more of program income for RLF administrative expenses during a
selected 12-month period, to submit a completed RLF income and expense statement to the
EDA Regional Office within 90 days of either September 30 or the RLF’s fiscal year end,
whichever period is selected by the grantee. The income and expense statements are intended
to reveal to EDA the amount of program income being earned, the percent of program income
being spent on administrative expenses, and the amount of program income added to the RLF
program for relending.

The EDC has exceeded the 50 percent requirement for use of program income for
administrative expenses. A financial review of the three-year period for the RLF program
revealed over 70 percent of program income being used to cover administrative expenses per
year. During the audit fieldwork, the EDC had submitted the income and expense statements in
the annual audit report for the fiscal year ending December 31, 2002. However, the audit
reports for fiscal years 2003 and 2004 had not been completed.

Required Single Audits
Have Not Been Conducted

OMB Circular A-133, Subpart B. 200, specifically requires grant recipients that expend at least
$500,000 in total federal awards in any given fiscal year ending after December 31, 2003, to
have a single audit performed. The requirement was $300,000 for the two prior years. The
circular further explains the basis for determining federal awards expended. Generally, the
calculation will include the RLF’s balance of all outstanding loans, plus cash and investment
balance, plus administrative expenses paid out of the RLF during the year. The EDC reported
an RLF fund balance of more than $600,000 for each year of the three-year audit period.

The EDC has obtained yearly audit reports; however, there have not been any single audit
reports conducted on the RLF funds. In addition, the independent audit report for the year
ending December 31, 2003, had not been completed and the audit report for the year ending
December 31, 2004, had not been started at the completion of our site visit.

Grantee Response

Grantee officials stated that they are working to improve the timely submission of semiannual
reports. Officials stated that the reports have been difficult and burdensome because of few
loans, no formal report training and different instructions on how to prepare the reports.
However, officials stated that they plan to visit EDA’s Philadelphia Regional Office to receive
training.

Grantee officials also stated that they have no planning grant funding to pay for an RLF plan
update or the preparation of a new certification. Officials stated that they submit the income
                                               13

U.S. Department of Commerce                                         Final Report ATL-17285-6-0001
Office of Inspector General                                                          January 2006

and expense statement as part of their annual audit report as soon as it is received. Officials
attached a copy of an independent accountant’s 2003 financial statement review and stated that
the accountant is beginning the 2004 audit. Grantee officials stated that they have used the
same audit source since the grant was first issued.

OIG Comments

We believe the formal training grantee officials plan to receive from EDA’s Philadelphia
Regional Office should assist them in the preparation of semiannual reports and EDA should
ensure that this training takes place. We continue our recommendation that the reports must be
complete, accurate, and submitted in a timely manner.

EDA planning grants are not made for funding RLF Plan updates or preparation of new
certifications. The grant agreement requires that the grantee review its RLF Plan, make needed
updates and receive certification from the EDC board that the plan is being followed. We
continue our recommendation that annual RLF Plan certifications be submitted to EDA as
required.

We agree that the submission of an annual audit report satisfies the requirement to submit
income and expense statements. However, the report for 2004 has not yet been prepared. We
continue our recommendation that the 2004 income and expense report be submitted to EDA.

The financial statement review for the year ending December 31, 2003 does not satisfy the
OMB A-133 requirement. Also, the grantee’s response that it has always used the same audit
source does not specifically address the finding. We continue our recommendation that EDC
obtain single audits for each of the past 3 years and for future years as required.

Recommendations

We recommend that EDA’s Philadelphia Regional Director require the EDC to:

   1. 	Submit all required semiannual reports to EDA and ensure that the reports are timely,
       complete, and accurate. EDA should ensure that appropriate training takes place.

   2. 	Submit annual RLF plan certifications and the 2004 income and expense statement
       to EDA.

   3. 	Obtain single audits for each of the past 3 years and for future years as required by OMB
       Circular A-133.




___________________________________________
Kathleen M. McKevitt                Date
Regional Inspector General
 for Audits


                                              14

EDC Fund.,hc.
                                                                                                '.
Telephone (802) 773-4333 	                                                                        .Howe Center, Suite 40
                                                                                                1 Scale Avenue, BuRding #18
                                                                                                Rutland, Vermont 05701-4456
                                                               August 24,2005

      Regional Inspector General for ~ u d i t s
      Office of Inspector General
      U S Departmenf of Corqmerce         '




      401. W.'PeachtreeSt. N.W.Suite 2742 

      Atlanta, Georgia ,30308 


      'A'ITN: William F. Bedwell, Jr.                          Re:.Drafl Report A n - 1 72854-000 1. 

            . .RegionalInspector General for audits .              Grant 11~0.01-39-0 1 829

             .    (




      Dear Mr. Bedwell:

            We are responding to theabove referenced audit &at was prf&-med                          We have 

                                                               - -- -

                                                                                          -'-


      addre&d the &ne items in the executive summary

             1. Enclosed copies of letters dated March 30, ZOOS. fiom EDC and March 24,2005
      @omA ,M.Peisch& Company in reference to allowances for uricolledbls we have macje $                        '

                   loans and.have a e l e .o f others pending totaling another.$.75,000.~..~ t hthe.
    . ?5JJ000.0000in                                                                              :
      loanloss resen+ we do nof feel thatwe have shy exdess cash.

                i Page &-states that the& is an exception that an:feel was met at the time of tho loan           '
                                                                                                                     '


       being processedrtext removedl is h i d as a m&ultant,-notan employe, kd-is-directedto
                                                                                      -
       perform seNiwk under the direction of the president pn an as needed basis The hoard voted .
     . and discuss'ed any and all conflicts of interest 6 per n g u h t i o f
                                                                            ~or.excepttiomand felt that the 

       exceptions were md. At fhe
     .loan. 

                                                                         -
                                          board of directors meeting the board voted nbt to renew the 



              3. Enclosed an copies offord	     conbacts fok [ t e x t r e m o v e d l ; ~ ~ i ' ackesbm&
                                                                                                  nd
     Incorpo-.      Also eac10sed ii ampy ofthe 1991 l q e , lease relocatib'n and hewal along .
                                                                             0



     y i t l i ~ renewalsoftocunea
                       ~ v ~          	         Theoriginal@aadrenewak-Itqn#lhasa .
     Drminationc l a m ofIpsee may n    q w 1-r    in writing nof lcm,thmS i (60) dsys in adv'ance :
     ofthe tamhation intent of above statedterm by registered
                                                            . .       or Cprtifed mail and the option is
     also @ted to the Lessor;                                                                       . .

              4. Enclosed'Sreco~iesof wiitten loan applications that the time of the.andit could not                         '.


      belckted-       '  .	                                                        .   .
                                                                                                                         '


                       0- Records, Sammy G Media, did not have applicationsthey req&&d the -
                                                    -. . Auto, Dydo Anto and Homw T*
     .loan in letter form, which both ae attached . Bnmo                                                    +
      appli&om and an attached.

            .   5. We are working to get better collitcral oii loans but there is no.mec&mim available


                                                        -I.-
                                                 EDC Fund; Inc.
                                                                                                                           APmai              I
                                                                                                                           Page 2 of 3
            EDG Fund,Inc,                                                                                                                             .       .
                                            . .
          Teleph?~
                 (802)7734333.                        .	                                                         -   ~owe'~enter,
                                                                                                                              suite 40                    .
                                                                                                       . . 1 Scale Avenue, Building #18
                                                                                                             .
..	                                                                                                    . .
                                                                                                           .R.dai.1dSVermont 05701-4456
                              for us to lever our funds unless we an willing to take a 2"6&;3"'mortgage poslhon behind the         .      ,

                              following organizations 	                                                  . .


                                                               ,l.. Private.banks .
                                                                2. REDC R&d         Economic Developinent Cop
                                                                3. BCIC Bennington County Industrial Corp
                                                                        -,


                                                                4. VEDA Vt Economic Development Authority. .
                                                           .    5. F'HA . Farina ~ o m Adminstratiori
                                                                                          e             .
                                                                6. USSBA U.S. Small ~u&u&s.~dmhstration. .
                                                       '        7. Private mortgage lenaers

                        . .  6. Please Gferen& to item #5 for the levemgiug. (Zedit reportshave never been done                       -
                      we make phone c0ntacts.q .far as personalre&rencesand credit We are n6t a m p k ofany
                - .credit bureau that would a&w to acoess f-            nqorts, we an hm asmall rural community.
                 .. 	 whew everybody knows everybody*
                             W&are revising our a&licatiion fcmn so that kqPlicauts&statejobs aeated/ntained . .                              ,




                      AU loan approvalsreflect thenupber ofjob to be created orretained, Thejobs created/&ed     .
                      vary due to the eqm0m.i~climate of the area and the indiRduaI..
                                                                              . .   EconoaiicDevelopment is a
            .             feastor famine bus'ink.
                                                                                                                               .. .
                              7. we have.b e g working oi in&rPv&gthe timely submk#onof'ae&--uai                     report.                  .
                      This.hasbecome very~diEdttand burd-me              for us due tothe fad we ody have a f~ loans' .
                      and np formaltrainiqg on how to fiIT ixitthe qmrt. We received some assistance hrn;[text
                    removedl 	 and [ t e x t removed'ome ~ o ~ o mde~e~o~rnent
                                                                    ic            -resent.: bothof &es&peciplegave
                      different ~ o non bow       s to fjll'itout,andthelG auditor; [ t e x t removedl gave us a third.s&
                      ofhow to's, the                          know what we,&oddbe doing; start&.fiPm.and the
                                                 time 'wewedon~t                                                                '     '   .       :
                                                                .    . .
                      fom. . v. w Confbi@compIexing..
                                                      . .
                                      . .
                                 8. . we submit the &me and expense sMemmt as *.of ow,aodaand is.fomwck$ & .
                                  '     .
                        soon as we receive-it.                                .         a



                              .. We have no planning
                                                  .   grant funding to pay for  anupdate of the RLF plan or . . . .
                      . of a new certific8tioi~                '

                              ,       .                                                       .  .

                             9 . We haw usedthe same single so&        audit from A.M. P~ischwho has performed the
                    ' 	audasincelhegntntwasfustissued ~ w a s a p p m v e d b y ~ ~ ~ a t & ~ t i m e o f o m ~. l a $ t ~ .
                     . ,theyreviewed it This audit was only back to the pqvioui audit.
                                                  '
                                                                                                            . .
                               The 2003financial statement comi,l,lcraand wifl be forwardedto.you. The.acixktant
                     . is beginning the 2004 audit - the delay is d                                -
                                                                    d om abuntant wehan continued to &fitact - . .
      .         .    . 'th&
                                                                                                             P
                                                                                                                       .   .

      ' '
                                  We.may.have,hat! excess cash at the time of the audit because in thepsekous years the .
                                  .
                          local banks had becomevery cmre&ve.and grsmcd loans to people who contacted us for low, -.
                                                                        . . . .


                                                                              EDC Fund, lnc. . .
            .   .

         EDC Fund, inc.
        . Telephone (802) 7734333                                                                  Howe Center, Suite 40
                           . .
                                                   .   .                                         Scale' Avenue, Building # I 8
                                                                                                W a n d ,.Vermont 05701-4456
                   The-bank took just about every opportunity to meet the loan' plad and jobcieatron w h ~ gaveh us       .

                   a spike in our money this situation is .nowbeing ~ m c t c d ..
                           Please note that this fund uses interest from cash r e k in banks and our lo&
.   .
                   repayments for ftture loans and loan less pxmve. . This fund $ run &thou reducing'.the.             '



                   principal of the grant.for administrative cost, which is minimal, and as noted by the auditor
                   beIow market rates. .
                .         The                                        -
                            . . market has chariged in the past 6 8 months, we now bave i n c d demands for bur
                .. loans.
                          We ak $aiming to. go the Philadelphia office to m i v e some eainiog for        correct
                  &mpletion ofthe mni-annual reports




                    :cc: PaulM, Raetsch
                     ,  . Regional ~irectoi..




                                                                                                                  '          .     .                .   .
                                                                                                                  ..
                                                                 .   -3-.,                                                                  .   .
                                              ..

                                                           .   EDC Fund, Inc.                    =:;.   .   ,   . ..
                                                                                       .   .

                    . ..         . ,.   . .                                                                                . ' . . . ....... ....,.,. 

